                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                       ACTION MEMORANDUM

TO: AIGI       I    File Number: A-011 10043                                     1   Date: 01131102


Subject: Closeout                                                                               Page 1 of 2




       On 27 November 2001, we received two allegations of misconduct in science involving the
       subject's1 declined NSF proposal.2 First, the subject's proposal allegedly sought duplicate
       funding for projects he had already completed under a current NSF award.' The subject's annual
       report for the current award allegedly discussed the completion of projects he presented in the
       proposal as new work. Second, the subject's proposal was misleading because it allegedly
       presented a specific technique as new that was not new.

       Our review of the first allegation, a duplicate request for funding, noted that

       1) the subject received 3 awards over the past 9 years in support of the same ongoing research
          project;4
       2) the subject's second and third awards were considered renewal awards by the program for
          the continuing ongoing research project; and
       3) the subject submitted an annual report for the current award which discussed the results of
          projects he completed during that award period. The proposal contained similar projects;
          however these projects expanded upon his prior work and included the addition of a new
          variable and the modification of experiments.




                                                                                           was submitted by the




                     Prepared by:                   Cleared by:
                    Agent:          Attorney:     Supervisor:     AIGI
   Name:



 Signature &
    date:
     /
                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                     ACTION MEMORANDUM

TO: AIGI        File Number: A-0 1 1 10043                                      Date: 01/31/02


Subject: Case Closeout                                                                      Page 2 of 2



       We concluded that the proposal was an extension of the subject's previous ongoing work. There
       is no substance to the allegatibn that the subject sought duplicate funding for projects he had
       already completed.

      Our review of the second allegation that the subject presented a technique as new in his proposal
      that was, in fact, not new showed that

           1) the subject's proposal provided significant information about the technique as it related to
              his prior work, including a discussion on improvements made with the technique; and
           2) the subject's proposal discussed the fact that he had presented information about his
              technique at a national meeting as well as a publication about it.

      There was no evidence that the subject attempted to present the technique as new; rather, that he
      and his laboratory attempted to show how they had developed, and continued to develop, the
      technique. We concluded that there was no substance to the allegation that the subject presented
      misleading information about the technique in his proposal.

      This inquiry is closed and no further action will be taken.
